               Improved Policies and Guidance Are Needed
                       for the Telework Program

                                     July 2005

                       Reference Number: 2005-10-107




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     July 6, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


      FROM:                        (for) Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Improved Policies and Guidance Are
                                   Needed for the Telework Program (Audit # 200410021)


      This report presents the results of our review of the telework program (known as the
      Flexiplace Program) in the Internal Revenue Service (IRS). The overall objective of this
      review was to determine whether the IRS has implemented its Flexiplace Program in
      compliance with Office of Personnel Management (OPM) guidelines.
      Telework (also known as telecommuting) is emerging as an important work option for
      the Federal Government and its employees. It allows employees the flexibility to better
      manage their work and personal responsibilities and can make Federal service more
      attractive to prospective employees. The IRS first implemented its Flexiplace Program
      in 1995. The Program had grown to include an estimated 27,000 employees in 2003.
      Notwithstanding the widespread participation in the IRS Flexiplace Program, the IRS
      has not implemented adequate policies or guidelines for its Flexiplace Program. While
      there are provisions in the IRS National Treasury Employees Union National
      Agreement1 related to implementation of the Flexiplace Program, the provisions are not
      adequate to conform to OPM guidance on telework. Furthermore, employee
      participation in the Flexiplace Program is not tracked, which makes it difficult for the IRS
      to accurately report to the OPM on Flexiplace Program participation (the IRS estimates
      of participation are based on surveys). It also makes it difficult for the IRS to ensure
      employees have the needed support and equipment to work successfully at alternate
      locations. Moreover, it limits the ability of the IRS to identify office space that is not
      needed for employees who telecommute most of the time.
      Some managers expressed concerns that the productivity of employees participating in
      the Flexiplace Program is reduced. Of the 30 Small Business/Self-Employed Division

      1
          2002 National Agreement, Document 11678 (Rev. 8-2002), Catalog Number 32781U.
                                            2

managers we interviewed, 9 (30 percent) believed employees participating in the
Flexiplace Program were less productive. Furthermore, 16 of the 30 managers had
removed an employee from the Flexiplace Program due to poor performance. There
appeared to be misconceptions about the level of change in performance that would
justify removing employees from the Program. Managers we interviewed indicated an
employee’s performance had to fall to unsuccessful before the employee was removed
from the Flexiplace Program; however, IRS officials indicated managers should not wait
for such a significant drop in performance before taking action. Further, surveys
indicate that better equipment and telecommunications access would improve employee
productivity.
Guidelines are needed to ensure employees participating in the Flexiplace Program
receive the correct locality pay. There are conflicting guidelines Government-wide
about what locality pay employees should receive when working from their homes or
other alternate locations. The IRS follows the practice of using the location of the
employee’s office to determine locality pay, regardless of whether an employee
commutes to that office or works at an alternate location full time. The OPM has issued
proposed regulations which indicate that if an employee works at an alternate location
full time, that location should be used to determine the employee’s locality pay.
We recommended the Chief Human Capital Officer develop overall program guidelines
that conform to those recommended by the OPM, implement a system to accurately
determine the number of employees participating in the Flexiplace Program, implement
guidelines to assess employees’ abilities to participate in the Program without a loss of
productivity, provide training to address productivity issues, and determine what
logistical support and equipment employees need and develop the procedures to
ensure they get the right equipment to work productively and to properly secure
sensitive data in their possession. We also recommend the Chief Human Capital
Officer work with the OPM to implement policy regarding official duty station
designations for employees participating in the Flexiplace Program.
Management’s Response: IRS management agreed with our recommendations and
proposed corrective actions to address the issues identified in the report. These
proposed actions include developing an overall policy for the Flexiplace Program,
implementing a tracking system, implementing guidelines to address productivity of
employees participating in the Program, providing training, and assessing the logistical
support and equipment needs of employees. In addition, management will develop
appropriate guidance related to official duty station designations for employees who
participate in the Flexiplace Program. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                                      Improved Policies and Guidance Are
                                       Needed for the Telework Program




                                                  Table of Contents


Background ............................................................................................... Page 1
Telework Program Policies and Guidelines Need to Be
Developed and Implemented .................................................................... Page 3
         Recommendations 1 and 2: ...........................................................Page 6

Some Managers Expressed Concerns That the
Productivity of Employees in the Telework Program Is Reduced .............. Page 7
         Recommendations 3 through 5:.....................................................Page 12

Cost Benefits Could Be Achieved by Releasing Office
Space for Employees Participating in the Telework Program.................... Page 13
Guidelines Are Needed to Ensure Employees
in the Telework Program Receive the Correct Locality Pay ...................... Page 15
         Recommendation 6: .......................................................................Page 17

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Management’s Response to the Draft Report .................... Page 22
             Improved Policies and Guidance Are
              Needed for the Telework Program

                    Telework (also known as telecommuting) is an alternative
Background
                    work arrangement for employees to conduct all or some of
                    their work away from their primary workplaces. It is
                    emerging as an important and attractive work option for the
                    Federal Government and its employees. Its proponents
                    believe it has the benefit of providing employees with the
                    flexibility to better manage their work and personal
                    responsibilities. Telework provides Federal Government
                    agencies additional flexibility that makes Federal service
                    more attractive to prospective employees and encourages
                    employees to remain in Federal service. There are also
                    benefits to society such as reduced traffic congestion,
                    reduced air pollution, and greater accommodation of
                    individuals with disabilities.
                    The promotion of telework in the Federal Government first
                    began in 1990 when the President’s Council on
                    Management Improvement approved a 1-year pilot project.
                    The pilot was performed by the Office of Personnel
                    Management (OPM) and was considered to have
                    successfully demonstrated that telework could assist in
                    recruiting, motivating, and retaining workers while reducing
                    costs associated with sick leave, office space, and
                    transportation.
                    In 2000, the Congress passed legislation1 requiring that
                    Federal Government agencies establish policies that permit
                    eligible employees the opportunity to participate in telework
                    to the maximum extent possible without diminished
                    employee performance. The intent was to provide benefits
                    both to employees and agencies. Morale of employees is
                    improved and their overall quality of life is enhanced.
                    Agencies realize the benefits of improved employee
                    retention, less absenteeism, increased productivity, and
                    reduced office rent costs.
                    An employee who participates in telework may perform
                    work duties at home or another location where there is an
                    adequate telecommunication connection to the primary
                    office site and there is an office setting conducive to
                    accomplishing work requirements. This reduces employee

                    1
                     Pub. L. No. 106-346, § 359 (Department of Transportation and Related
                    Agencies Appropriations Act of 2001).
                                                                                 Page 1
Improved Policies and Guidance Are
 Needed for the Telework Program

       commuting time and inconvenience while allowing
       employees the opportunity to effectively accomplish their
       work.
       The Internal Revenue Service (IRS) first implemented a
       telework program known as the Flexiplace Program
       in 1995. The Program had grown to an estimated
       27,000 participating employees in 2003. The IRS has
       implemented two types of Flexiplace Program
       arrangements: occupational and situational/hourly.
       •   Occupational2 - The employee completes all or almost
           all duties outside of a traditional office setting. This
           work arrangement also provides for potential savings
           based on shared use of office space.
       •   Situational/hourly - The employee participates in the
           Flexiplace Program as work assignments permit.
           Employees are allowed to work outside of the office on
           a case-by-case basis but for no more than 80 hours a
           month.
       The Chief Human Capital Officer (CHCO) has certain
       administrative responsibilities for gathering information
       about the Flexiplace Program and for monitoring the
       Program. This review was performed at the IRS National
       Headquarters in Washington, D.C., in the office of the
       CHCO and the Agency-Wide Shared Services Division
       during the period July through December 2004. We also
       contacted officials in the four IRS Operating Divisions:
       •   Large and Mid-Size Business Division.
       •   Small Business/Self-Employed (SB/SE) Division.
       •   Tax Exempt and Government Entities Division.
       •   Wage and Investment Division.
       The audit was conducted in accordance with Government
       Auditing Standards. Detailed information on our audit
       objective, scope, and methodology is presented in



       2
        The OPM and other agencies use the term “core” in place of
       occupational.
                                                                     Page 2
                          Improved Policies and Guidance Are
                           Needed for the Telework Program

                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.

Telework Program Policies and    In May 2003, the OPM issued a guidance document entitled
Guidelines Need to Be            “Telework: A Management Priority, A Guide for Managers,
Developed and Implemented        Supervisors, and Telework Coordinators” to assist Federal
                                 Government agencies with the implementation of telework
                                 programs. The OPM guidelines cover a wide range of
                                 topics on the implementation of telework to help agencies
                                 develop criteria to be used in implementing policies that
                                 ensure managerial, logistical, organizational, and other
                                 barriers to successfully implementing a telework program
                                 are removed. The OPM believes the three critical elements
                                 of a telework program are effective policies, training, and
                                 evaluation. A successful telework policy should ensure all
                                 eligible employees of an agency have the opportunity to
                                 participate in the program to the maximum extent possible
                                 without diminished performance. The policy should also
                                 provide the administrative, human resource, technical, and
                                 logistical support needed to carry out a successful program.
                                 Furthermore, the policy should outline the goals and
                                 objectives of the program as well as the benefits to the
                                 organization and employees.
                                 The IRS has not implemented adequate policies or
                                 guidelines for its Flexiplace Program. While there are
                                 provisions in the IRS National Treasury Employees Union
                                 (NTEU) National Agreement3 related to implementation of a
                                 Flexiplace Program, the provisions are not adequate to
                                 conform to OPM guidance on telework.
                                 In 2002, the IRS and NTEU agreed to establish a Flexiplace
                                 Subcommittee under the National Labor Management
                                 Relations Committee;4 this Subcommittee was given the
                                 responsibility to develop Flexiplace Program policy and
                                 procedures for the IRS. However, the Subcommittee met
                                 only two times—the NTEU was unable to reach agreement
                                 with IRS management about a policy or procedures under
                                 which a Flexiplace Program could be administered and

                                 3
                                   2002 National Agreement, Document 11678 (Rev. 8-2002), Catalog
                                 Number 32781U.
                                 4
                                   This Committee is comprised of representatives from management and
                                 labor that meet semi-annually to discuss personnel policy issues.
                                                                                              Page 3
Improved Policies and Guidance Are
 Needed for the Telework Program

       monitored. Consequently, the Subcommittee was disbanded
       by the IRS in 2004. Because a policy was not developed,
       the IRS uses Article 50 of the National Agreement as the
       policy statement for the Flexiplace Program.5
       Article 50 includes general Flexiplace Program definitions,
       employee eligibility, positions covered by the Program,
       management and employee responsibilities, protection of
       taxpayer data, furniture and equipment needs, and
       availability of office space for employees who participate in
       the Flexiplace Program on an occupational basis. However,
       it does not include the following elements that the OPM
       recommends for a telework policy:
       •   General policy statement with program definitions.
       •   Program goals and objectives.
       •   Review of program benefits.
       •   Assessment tool to determine potential for telework.
       •   Supervisory checklist.
       •   Home safety checklist.
       •   List of possible logistical support items available from
           the agency, with necessary forms.
       •   List of telecenters and the procedures for using a
           telecenter.
       Employee participation is not tracked
       The OPM requires agencies to report annually on the status
       of telework implementation and the level of employee
       participation in telework. The IRS does not track the actual
       number of employees who are eligible to participate or how
       many employees are actually working in the Flexiplace
       Program. Instead, the IRS has tried to analyze the
       implementation of the Flexiplace Program and evaluate
       employee participation in the Program through surveys
       of its managers. The IRS contracted with the
       Booz-Allen-Hamilton consulting group to conduct a survey


       5
        This Agreement does not cover nonbargaining employees or managers
       and supervisors.
                                                                  Page 4
Improved Policies and Guidance Are
 Needed for the Telework Program

       during 2002.6 In 2003, the IRS Office of Program
       Evaluation and Risk Analysis (OPERA) conducted another
       survey.7
       Both surveys provided similar estimates of the number of
       employees participating on an Occupational and Situational
       basis. The results of the OPERA survey are shown in
       Table 1.
       Table 1: IRS Estimate of Overall Flexiplace Program Participation
                                 During 2003
             Union        Eligible Occupational Situational  Total
                                                                        Percent
           Affiliation   Employees  Flexiplace  or Hourly Participation

           Bargaining     27,335       5,675       16,000       21,675         79.3%

       Nonbargaining       6,836       449         4,762         5,211         76.2%

             Total        34,171       6,124      20,7628       26,886         78.7%
       Source: 2003 OPERA Flexiplace Program Survey.

       While the Flexiplace Program surveys performed by the IRS
       and its contractor have been helpful in estimating the
       number of participating employees and obtaining other
       information about the Program, there are certain limitations
       to tracking the Flexiplace Program in this manner:
       •     The IRS can provide only estimates rather than the
             actual numbers of participating employees as required
             by the OPM.
       •     The actual employees in the Flexiplace Program and
             their job series and types are not known, which makes it
             difficult for the IRS to ensure employees have the
             needed support and equipment to work successfully at
             alternate locations.
       •     The IRS is limited in its ability to identify office space
             that is not needed for employees who telecommute most
             of the time.



       6
         IRS Flexiplace Survey Final Report, September 30, 2002.
       7
         IRS Flexiplace Survey Report, April 2004.
       8
         This figure includes situational, ad hoc, reasonable accommodation,
       and temporary medical situations.
                                                                         Page 5
Improved Policies and Guidance Are
 Needed for the Telework Program

       •   The IRS cannot ensure employees are receiving the
           correct locality pay.
       •   The IRS cannot assess what other benefits, if any, have
           resulted from the Flexiplace Program.
       The IRS modified its employee time reporting system to
       allow it to track employee participation in the Flexiplace
       Program and planned to require its use beginning in
       December 2004. However, due to several questions and
       concerns from the NTEU and management, the IRS decided
       to delay implementing the modification to the time reporting
       system until these concerns were addressed.
       We discussed the lack of a comprehensive policy for the
       IRS Flexiplace Program and the delays in implementing a
       system that would determine which employees are
       participating in the Program with IRS officials in the
       Human Capital Office. These officials advised us that the
       IRS plans to negotiate the implementation of a Flexiplace
       Program policy and, independent of the negotiations,
       implement a time reporting system prior to Fiscal Year
       (FY) 2006 to track employee participation.

       Recommendations

       The CHCO should:
       1. Ensure an IRS-wide Flexiplace Program policy is
          developed and implemented that addresses all the
          elements recommended by the OPM.
       Management’s Response: The CHCO will develop a
       telework policy that will be vetted with the key stakeholders
       before implementation.
       2. Take steps to implement the Flexiplace Program
          tracking system by the end of FY 2005.
       Management’s Response: The CHCO will implement the
       Flexiplace Program tracking system. The timing of
       implementation will be subject to budget limitations and
       priorities of the office of Modernization and Information
       Technology Services.



                                                             Page 6
                             Improved Policies and Guidance Are
                              Needed for the Telework Program

                                    Employee performance is one of the most important factors
Some Managers Expressed
                                    an agency must consider in its telework program. The law
Concerns That the Productivity of
                                    provides that each agency establish a policy under which
Employees in the Telework
                                    eligible employees participate in telecommuting to the
Program Is Reduced
                                    maximum extent possible without diminishing employee
                                    performance. Productivity is one of the areas which the
                                    OPM Telework Manual9 advises agencies to concentrate on
                                    to determine the effect of telework.
                                    OPM guidance states that successful telework programs
                                    often result in increased employee productivity. One of the
                                    reasons noted is employees face fewer interruptions when
                                    working away from the office. However, among IRS
                                    managers who responded to the FY 2003 IRS survey,
                                    opinions about productivity varied: 60 percent responded
                                    employee productivity was unaffected by participating in
                                    the Flexiplace Program, 16 percent responded productivity
                                    improved, and 24 percent believed employees working
                                    away from the office were less productive.
                                    In the response to the IRS survey, the opinions on
                                    productivity varied considerably in the operating units of the
                                    IRS. For instance, in the SB/SE Division, which is by far
                                    the largest participant in the Flexiplace Program, 44 percent
                                    of the managers believed employees were less productive
                                    working away from the office. During the course of our
                                    audit, we interviewed a judgmental sample of 30 SB/SE
                                    Division managers to obtain their perspective on the
                                    Flexiplace Program. Most of the managers believed the
                                    effect on productivity depended on the employees’ abilities
                                    and motivation; however, 9 of the 30 (30 percent) managers
                                    we interviewed believed employees participating in the
                                    Flexiplace Program were less productive. Table 2 shows
                                    the types of responses by SB/SE Division managers in the
                                    Collection and Examination functions.




                                    9
                                        Chapter I, “Evaluating the Agency Program.”
                                                                                           Page 7
Improved Policies and Guidance Are
 Needed for the Telework Program

          Table 2: Opinions of 30 SB/SE Division Group Managers Who
                 Were Interviewed About Employee Productivity
                               (as of October 2004)

                                           Change in
                     Employees More                            Employees Less
         Function                     Productivity Varies by
                       Productive                               Productive
                                           Employee

       Collection         13.3%               60.0%                26.7%

       Examination        13.3%               53.4%                33.3%

       Total              13.3%               56.7%                30.0%

       Source: Treasury Inspector General for Tax Administration (TIGTA)
       interviews with SB/SE Division group managers.

       We also asked managers whether they were in favor of the
       Flexiplace Program—11 of the 30 managers were not in
       favor of it.
        Table 3: General Opinions of 30 SB/SE Division Group Managers
             Who Were Interviewed About the Flexiplace Program
                             (as of October 2004)
                         In Favor of      Neutral About      Not in Favor of
         Function    Flexiplace Program Flexiplace Program Flexiplace Program

       Collection          46.7%              20.0%               33.3%

       Examination         33.3%              26.7%               40.0%

       Total              40.0%               23.3%               36.7%

       Source: TIGTA interviews with SB/SE Division group managers.

       Of the 30 managers we interviewed, 16 had removed at least
       1 employee from the Flexiplace Program because of poor
       performance. However, the managers explained that, in
       accordance with the National Agreement with the NTEU, an
       employee’s performance had to deteriorate to the point that
       the manager could rate the employee as unsuccessful before
       the manager could remove the employee from the
       Flexiplace Program. Because of the rating of unsuccessful,
       these employees are subject to a number of actions up to and
       including dismissal from the IRS if their performances do
       not improve.
       We discussed the issue of employee performance as it
       relates to the ability to participate in the Flexiplace Program
       with officials in the Human Capital Office. These officials

                                                                    Page 8
Improved Policies and Guidance Are
 Needed for the Telework Program

       stated an employee’s performance does not have to
       deteriorate to the point that he or she is performing
       unsuccessfully before he or she could be removed from
       participating in the Flexiplace Program. Human Capital
       Office officials believe managers have a misconception as
       to the agreement with the NTEU. The agreement with the
       NTEU specifies that employees may participate in the
       Flexiplace Program, subject to the approval of their
       supervisor, if they are in an occupation in which their duties:
              …can be accomplished by an employee working
              independently of other coworkers, support staff,
              and/or his or her manager, without any adverse
              impact on individual and/or overall team or office
              productivity or customer service…10
       As such, these officials believe IRS managers may remove
       an employee from participating in the Flexiplace Program if
       there is an adverse impact on his or her performance or
       customer service.
       We believe the confusion about the criteria to apply when
       assessing whether an employee may participate in the
       Program is due in part to the lack of guidelines and training
       for assessing which employees are most suitable to work
       from alternate locations. Article 50 of the National
       Agreement with the NTEU provides a general definition of
       employee eligibility; however, it does not cover the more
       detailed assessment of an employee’s ability to work
       remotely as the OPM recommends, and it does not contain
       any guidance concerning the possibility of diminished
       performance by employees working away from the office.
       The OPM recommends managers evaluate employees’
       ability to be self-starters, meet deadlines, successfully plan
       work, and work without regular supervision. The OPM
       suggests this be a formal process recognizing all employees
       may not be well suited to work away from the office.
       Although IRS managers have received training on the
       provisions of Article 50 related to the Flexiplace Program,
       the training did not address how to determine which
       employees are suited to work away from the office, how to

       10
            National Agreement, Article 50, Section 2, Subsection E.
                                                                       Page 9
Improved Policies and Guidance Are
 Needed for the Telework Program

       assess employee performance, or the other challenges of
       managing employees working in remote locations.
       The IRS is restricted by law from using certain
       performance measures to evaluate employees
       Most of the OPM’s guidance on how to assess productivity
       for employees who telework involves quantifiable measures,
       such as the number of cases, reports, or claims worked, or
       measures of the length of time needed to complete tasks.
       While the IRS may use certain measures to evaluate
       employee productivity, the IRS is restricted by law from
       using records of tax enforcement results to evaluate
       employees or to impose or suggest production quotas or
       goals with respect to employees.11 For example, the IRS
       may not evaluate employees on the number of liens filed,
       levies served, or dollars assessed or collected. The IRS
       instead must use balanced measures related to the quality
       and efficiency of employees’ work, as well as their
       interactions with other personnel and customers (taxpayers).
       Some of these measures are more difficult to gauge with
       employees who participate in the Flexiplace Program.
       The agreement to provide support and equipment to
       employees who participate in the Flexiplace Program
       has not been followed
       The Congress recognized logistical support would be an
       important factor in maintaining a successful telework
       program. As such, the Congress directed agencies to
       provide for administrative, human resources, technical, and
       logistical support for carrying out the telework policy.
       However, the IRS has not implemented a provision of the
       National Agreement with the NTEU related to providing
       technical and logistical support to employees who
       participate in the Flexiplace Program. In Article 50 of the
       National Agreement, the IRS agreed to reimburse
       employees participating in the Program at the occupational
       level for the purchase of a lockable file cabinet, a pager or


       11
         IRS Restructuring and Reform Act of 1998, Pub. L. No. 105-206,
       112 Stat.685 (codified as amended in scattered sections of 2 U.S.C.,
       5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C.,
       31 U.S.C., 38 U.S.C., and 49 U.S.C.) § 1204.
                                                                     Page 10
Improved Policies and Guidance Are
 Needed for the Telework Program

       cell phone, and a commercial telephone line and provide use
       of a telephone credit card, subject to the limits established
       by the Flexiplace Program Subcommittee. The IRS also
       agreed to provide a telephone credit card and pager to
       employees participating in the Program at the situational
       level.
       There are indications that a lack of logistical support for
       employees who participate in the Flexiplace Program
       negatively affects employee productivity. In the IRS
       surveys of its managers conducted in 2002 and 2003, a
       significant percentage of the managers responded that
       employees who participate in the Flexiplace Program could
       be more successful if they had better logistical support. For
       example, in the 2003 survey, 68 percent of the SB/SE
       Division managers responded that employees who
       participate in the Program full time could be more
       successful if they had improved Internet connections, and
       56 percent responded that participating employees could be
       more successful if they had the appropriate
       telecommunications equipment. The agreement with the
       NTEU does not address high-speed Internet access, which
       would likely be necessary for employees who do a
       significant portion of their work on a computer to work
       effectively.
       Furthermore, not providing secure file cabinets to
       employees so they can adequately protect sensitive taxpayer
       data in their homes creates a potential security risk because
       many employees working at home have sensitive records
       and taxpayer data, including tax returns or return
       information, in their possession. While Article 50 of the
       agreement with the NTEU requires employees to
       acknowledge their responsibility in writing to protect
       sensitive information in their homes with locking cabinets
       or desks,12 the IRS would have greater assurance employees
       were properly protecting sensitive taxpayer data if it
       provided lockable cabinets to its employees in accordance
       with the National Agreement. The IRS could also ensure
       the cabinets meet established security requirements.


       12
         Employees acknowledge the security requirement when they sign the
       Flexiplace Program work agreement as required by Article 50.
                                                                  Page 11
Improved Policies and Guidance Are
 Needed for the Telework Program

       In the FY 2002 and 2003 Flexiplace Program survey
       reports, there were recommendations for the IRS to provide
       training on managing employees remotely, including
       monitoring work products and productivity of employees
       working remotely, and recognizing and appropriately
       dealing with performance problems. Further, these reports
       recommended that technical difficulties be addressed,
       including the need for equipment and improved Internet
       access. We believe these recommendations are still valid
       and should be implemented.

       Recommendations

       The CHCO should:
       3. Implement guidelines to assist managers in evaluating
          employees’ abilities to participate in the Flexiplace
          Program without a loss in productivity. This should
          include an assessment as recommended by the OPM. It
          should also include factors to consider when deciding
          whether to remove employees from participation in the
          Flexiplace Program.
       Management’s Response: The CHCO will ensure guidance
       addressing this recommendation will be incorporated into
       the IRS Telework Policy as it is fully developed and
       implemented.
       4. Ensure Flexiplace Program training is provided as
          needed to help address productivity concerns.
       Management’s Response: The CHCO is developing a
       communication plan to advise employees and managers to
       take the free online telework training courses provided by
       the OPM prior to participating in the Flexiplace Program.
       These courses provide helpful and needed information on
       telework concepts and how best to implement telework with
       the work group. The CHCO will also incorporate training
       requirements into the telework policy.
       5. Assess the logistical support and equipment needs of
          Flexiplace Program participants to help ensure there is
          no loss in productivity. Procedures should be developed
          to ensure employees receive the right equipment to work


                                                          Page 12
                            Improved Policies and Guidance Are
                             Needed for the Telework Program

                                      productively and secure any sensitive data or documents
                                      in their alternate work locations.
                                   Management’s Response: Agreement was reached during
                                   recent negotiations with the NTEU on equipment to be
                                   provided to employees approved for occupational or
                                   situational flexiplace. The equipment will be provided only
                                   if tied directly to the duties of the employee’s assigned
                                   position. The CHCO will ensure guidance addressing this
                                   recommendation will be incorporated into the IRS Telework
                                   Policy.
                                   According to the OPM, successful telework programs have
Cost Benefits Could Be Achieved
                                   a long history of producing benefits in organizations. The
by Releasing Office Space for
                                   OPM recommends agencies evaluate the impact of a
Employees Participating in the
                                   telework program on operating costs, employee morale,
Telework Program
                                   recruitment, and retention. However, without the ability to
                                   identify individuals participating in its Flexiplace Program,
                                   the IRS cannot readily evaluate the impact of the Program in
                                   these areas.
                                   The challenge of measuring the employee benefits of
                                   teleworking is not confined to the IRS. According to the
                                   OPM, Federal Government agencies are not uniformly
                                   measuring the benefits of teleworking. For certain benefits
                                   such as employee morale, recruitment, and retention,
                                   changes may result from other variables such as job market
                                   conditions. As noted previously, the IRS performed surveys
                                   in 2002 and 2003 to obtain information about its Flexiplace
                                   Program; however, because of the expense of these surveys
                                   and the opinion that results would not be dramatically
                                   different, no additional surveys are planned for the
                                   Flexiplace Program. Nonetheless, for the past several years,
                                   the IRS has conducted a voluntary employee satisfaction
                                   survey to determine employees’ satisfaction with their jobs
                                   and the IRS work environment. The survey captures
                                   employee information such as pay category or grade, length
                                   of service, work schedules, and other similar data. This
                                   survey could be modified to determine employees’ views of
                                   the effect of the Program on morale, recruitment, and
                                   retention.
                                   One area in which agencies should be able to realize
                                   monetary benefits is office space and associated overhead

                                                                                        Page 13
Improved Policies and Guidance Are
 Needed for the Telework Program

       and support costs. Such savings should result because
       employees who work at home full time generally do not
       need individually assigned offices or work space. As such,
       employees who are participating in the Flexiplace Program
       on an occupational (full-time) basis agree to give up
       individually assigned workspace in the office. Instead of
       individual workspace, management will provide them a
       common work area that, according to the National
       Agreement with the NTEU, may be configured on a space
       ratio of not less than one workstation for every
       three employees participating in the Flexiplace Program on
       an occupational basis. Occupational employees are
       expected to work from an alternate location for a period of
       at least 12 months, given the impact that their return could
       have on office space.
       Notwithstanding the intent of this National Agreement with
       the NTEU, the IRS has not implemented a policy of
       releasing office space for employees in the Flexiplace
       Program. A prior TIGTA audit of IRS use of office space13
       reported the IRS has not realized any cost savings by
       releasing space assigned to employees participating in the
       Flexiplace Program. Furthermore, the fact that the IRS does
       not track which employees participate in the Flexiplace
       Program makes it difficult to implement such a policy.
       We believe the IRS could achieve substantial savings by
       implementing such a policy. Using the target utilization rate
       of 240 square feet per person and a conservative ratio of
       2 employees for each workstation, the prior audit reported
       the IRS could release approximately 792,000 square feet of
       space for Flexiplace Program employees, which would save
       the IRS an estimated $19.8 million annually. IRS real estate
       officials responded to our previous report on the use of
       office space that they will target office space vacated by
       occupational Flexiplace Program participants for release
       once current negotiations with the NTEU over revisions to
       Article 50 are completed and an effective tracking system to
       identify participants has been implemented.


       13
        The Internal Revenue Service Faces Significant Challenges to Reduce
       Underused Office Space Costing $84 Million Annually (Reference
       Number 2004-10-182, dated September 2004).
                                                                  Page 14
                         Improved Policies and Guidance Are
                          Needed for the Telework Program

                                Despite the expansion of telework initiatives in the Federal
Guidelines Are Needed to
                                Government, there is still confusion about what locality pay
Ensure Employees in the
                                employees should receive when working from their homes
Telework Program Receive the
                                or other alternate locations. The locality pay of each
Correct Locality Pay
                                Federal Government employee is based on the official duty
                                station of the employee.14 An employee’s official duty
                                station is normally the place where the employee works or
                                performs his or her duties. The official duty station affects
                                the employee’s salary, reimbursement for travel expenses,
                                and, in some localities, whether earnings are subject to state
                                or city taxes.
                                The OPM has advised agencies to make official duty station
                                determinations consistent with the law and OPM guidance.
                                However, there are conflicting guidelines about where the
                                duty station should be for an employee who works at an
                                alternate location. The OPM Office of Compensation
                                Administration advises that Federal Government agencies
                                can designate an employee’s official duty station as the
                                location of the employee’s reporting office as long as the
                                employee regularly commutes into that office (i.e., at least
                                once a week). Agencies must change the employee’s duty
                                station to the location of the telework site (i.e., the
                                employee’s home) if the employee does not regularly
                                commute into the main reporting office. However, the
                                OPM’s “Telework Personnel Policies and Procedures”
                                document recommends agencies implement a policy to
                                “designate the teleworker’s main office as the official duty
                                station for such purposes as special salary rates, locality pay
                                adjustments and travel” because it is “likely to be the
                                simplest and most economical approach; however, agencies
                                may make their own determination.”
                                The IRS has not issued any agency guidelines which
                                address the issue of telework in determining an employee’s
                                official duty station. The IRS has taken the position that
                                official duty stations are not affected by where employees
                                work or perform their duties when they are participating in
                                the Flexiplace Program. Notwithstanding, there are certain
                                factors the IRS should take into consideration so it can



                                14
                                     5 U.S.C. § 531.603 (2004).
                                                                                       Page 15
Improved Policies and Guidance Are
 Needed for the Telework Program

       develop an adequate policy to cover all of its employees
       who participate in the Flexiplace Program.
       In ruling on cases related to official duty stations,15 the
       Comptroller General has used the following four factors:
       •    Length of assignment.
       •    Nature of duties performed.
       •    Where the greater amount of time is spent.
       •    Agency’s administrative designation.
       The General Services Administration Board of Contract
       Appeals (GSBCA) uses these factors in assessing agency
       official duty station determinations.16 In the only case we
       know of involving the official duty station of an employee
       participating in telework (an employee working in her home
       in Mississippi while assigned to an office in
       Denver, Colorado), the GSBCA applied these four factors
       and found her home was not designated her official duty
       station because the telework arrangement was temporary
       and scheduled to last only 2 months; there was no evidence
       provided that either the agency or the employee expected
       the telework arrangement to last longer. Because of the
       need for clear guidance in this area, the OPM has published
       new draft regulations17 to clarify this issue and assist
       agencies in making determinations on official duty stations
       for employees participating in telework. The draft
       regulations, consistent with the GSBCA decision, take the
       position that an employee must regularly commute to the
       office or the employee’s alternate worksite becomes the
       official duty station.
       Because the IRS could not provide records indicating which
       employees participate in the Flexiplace Program, we were
       unable to identify the specific number of employees who do
       not actually work in the locality pay areas for which they are
       being paid. We believe employees participating in the
       Flexiplace Program are more likely than those not in the

       15
          Durel R. Patterson – Reconsideration, B-211818 (Nov. 13, 1984) and
       cases cited therein.
       16
          In the Matter of Rebecca M. Sanford, GSBCA 16137-TRAV
       (July 2, 2003).
       17
          Federal Register (January 5, 2005).
                                                                    Page 16
Improved Policies and Guidance Are
 Needed for the Telework Program

       Program to live outside of their assigned locality pay areas
       because a primary benefit of working from home is to avoid
       a long commute. We analyzed IRS payroll information for
       3 metropolitan areas and found, for these areas, an average
       of 2.6 percent of the employees lived outside their locality
       pay areas (see Table 4).
        Table 4: Number of Employees Living Outside of Their Locality
         Pay Areas in Three Metropolitan Areas (as of October 2004)
                                                Employees Living
        Locality Pay Area     Total Employees      Outside of       Percentage
                                                Locality Pay Area

        Philadelphia               8,595              113             1.31%

        San Francisco              2,406               88             3.66%

        Washington, D. C.          9,478              338             3.57%

        Total                     20,479              539             2.63%

       Source: IRS records.

       Given that the IRS estimates approximately 6 percent of its
       workforce participates in the Flexiplace Program on a
       full-time basis, it is possible a significant number of them
       live and work outside their locality pay areas. For these
       employees, an incorrect locality pay designation could be
       substantial. We identified differences in pay of up to
       $9,000 per year, based solely on locality.
       To ensure fairness and consistency, we believe the IRS
       should review its current practices regarding official duty
       station designations and plan to implement the proposed
       OPM regulations for its employees who participate in the
       Flexiplace Program.

       Recommendation

       6. The CHCO should work with the OPM to develop
          appropriate policies and procedures related to official
          duty station designations for its employees who
          participate in the Flexiplace Program.
       Management’s Response: The CHCO will develop and
       issue guidance in compliance with OPM guidelines.



                                                                     Page 17
                                   Improved Policies and Guidance Are
                                    Needed for the Telework Program

                                                                                        Appendix I


                            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has implemented its telework program (known as the Flexiplace Program) in compliance
with Office of Personnel Management (OPM) guidelines. To accomplish this objective, we:
I.         Determined whether the IRS has implemented a Flexiplace Program that is in compliance
           with Public Law 106-346, § 3591 and established a policy that offers eligible employees a
           chance to participate in telecommuting to the maximum extent possible.
           A. Determined which office in the IRS has primary responsibility for implementing the
              Flexiplace Program.
           B. Evaluated the role of the Telework Subcommittee in the administration of the
              Flexiplace Program.
           C. Determined whether the IRS has established a formal organizational policy for
              implementing the Flexiplace Program.
           D. Determined whether the IRS Flexiplace Program policy includes elements that are
              outlined in the OPM Teleworking Guidelines.
           E. Determined how the IRS identified positions that are eligible to be included in the
              Flexiplace Program and the number of employees who actually participate in the
              Program.
           F. Determined whether the IRS provides or reimburses teleworking employees for
              equipment needs such as telephone lines, office connectivity, computers, software,
              printers, etc.
           G. Determined the requirements for protecting sensitive taxpayer data and how the IRS
              addresses this issue to ensure compliance.
           H. Determined whether the IRS has complied with the OPM’s annual reporting
              requirements.
           I. Determined whether the IRS has complied with the OPM’s guidance concerning
              employees’ official duty stations for locality pay purposes.
II.        Determined whether the IRS properly trained managers, supervisors, and employees prior
           to implementing the Flexiplace Program.



1
    Department of Transportation and Related Agencies Appropriations Act of 2001.
                                                                                              Page 18
                             Improved Policies and Guidance Are
                              Needed for the Telework Program

III.   Determined whether the IRS has established procedures to measure costs (including
       office space savings), productivity gains, and other intangible benefits (reduced sick
       leave, employee retention, etc.) of the Flexiplace Program.
       A. Interviewed responsible IRS officials and identified procedures that have been
          established to measure telework costs, productivity gains, and intangible benefits of
          the Flexiplace Program.
       B. Determined whether the IRS has identified any cost savings as a result of reduced
          office space because of the Flexiplace Program.
       C. Determined whether the IRS has identified the cost of equipment needs of employees
          who participate in the Flexiplace Program (telephone lines, office connectivity,
          computers, software, printers, etc.) .
       D. Evaluated how the IRS measures the productivity of employees who participate in the
          Flexiplace Program. From a June 12, 2004, population of 3,729 Small Business/
          Self-Employed Division managers, we interviewed a judgmental sample of 30 group
          managers to determine how they assessed productivity and whether they had concerns
          related to the productivity of telecommuting employees. A judgmental sample was
          selected because we did not intend to project the results and because a larger
          statistically valid sample would have required more audit resources than were
          available.
       E. Evaluated how the IRS measures intangible benefits (reduced sick leave, employee
          retention, increased morale, etc.) for employees who participate in the Flexiplace
          Program.




                                                                                           Page 19
                            Improved Policies and Guidance Are
                             Needed for the Telework Program

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Tom J. Cypert, Lead Auditor
William E. Thompson, Auditor




                                                                                      Page 20
                          Improved Policies and Guidance Are
                           Needed for the Telework Program

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Agency-Wide Shared Services OS:A
Chief Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Commissioner, Wage and Investment Division SE:W:S:W
       Chief, Agency-Wide Shared Services OS:A:F
       Chief Human Capital Officer OS:HC:PM:A




                                                                                Page 21
     Improved Policies and Guidance Are
      Needed for the Telework Program

                                            Appendix IV


Management’s Response to the Draft Report




                                                 Page 22
Improved Policies and Guidance Are
 Needed for the Telework Program




                                     Page 23
Improved Policies and Guidance Are
 Needed for the Telework Program




                                     Page 24
Improved Policies and Guidance Are
 Needed for the Telework Program




                                     Page 25
